      United States Department of Agriculture




Office of Inspector General
Private Voluntary Organization
Grant Fund Accountability




                                       07601-0001-22
                                       March 2014
                                           Private Voluntary Organization Grant Fund 
                                                         Accountability 
                                                                        
                                                     Audit Report 07601-0001-22 

What Were OIG’s

Objectives

To determine if FAS has
adequate controls to ensure
that PVOs are making proper
use of program funding to         OIG evaluated whether FAS has adequate 
efficiently and effectively       controls to ensure that PVOs are making 
operate agreements in
achieving Food for Progress       proper use of Food for Progress Program 
food aid program objectives.      food aid program funds. 
What OIG Reviewed                 What OIG Found
We reviewed FAS’ internal
                                  The Foreign Agricultural Service’s (FAS) Food for Progress Program,
controls for administering
                                  which totals approximately $734.5 million, seeks to improve
Food for Progress Program
                                  agricultural productivity and expand agricultural trade. OIG’s prior
agreements for fiscal years
                                  reviews of FAS’ food aid programs disclosed internal control
2009 through 2012, including
                                  weaknesses with its monitoring and closing of food aid agreements.
agreement monitoring and
                                  As a result of our previous audits, FAS has implemented corrective
agreement closeout processes.
                                  actions, such as developing and implementing a Food Aid Information
We also reviewed prior OIG
                                  System for administering food aid program agreements, providing
and GAO reports, and FAS’
                                  staff training, issuing new regulations, and hiring consultants to assess
corrective actions taken in
                                  its management controls over its food aid programs.
response to those reports.

What OIG Recommends               However, our current audit of FAS’ Food for Progress Program
                                  identified similar, significant program management control
FAS should designate a            weaknesses. FAS does not have effective controls in place to monitor
responsible official to oversee   and close out agreements. Also, FAS’ controls did not ensure that:
the development and               (1) Private Voluntary Organizations (PVO) reported financial
implementation of controls        information completely and accurately in their semiannual reports, (2)
and measures and to               PVOs established separate bank accounts to administer agreements,
periodically assess the           and, (3) interest earnings were remitted on advanced Commodity
effectiveness of corrective       Credit Corporation administrative funds. This occurred because FAS
actions taken to the program’s    lacks strong management over the program. We found that FAS had
weaknesses. Also, FAS             not fully overseen these program agreements, nor had it implemented
should recover unallowable        performance indicators or measures to assess its accomplishments.
costs charged to two PVOs’        These weaknesses resulted in questioned and unsupported costs
agreements and review and         totaling $685,646, and funds to be put to better use totaling $8,481.
recover any additional
unallowable or unsupported        Without strengthening its oversight of Food for Progress Program
costs.                            agreements, FAS cannot ensure Federal resources are used efficiently
                                  and effectively. While FAS generally agreed with all
                                  recommendations, we accepted management decision on 6 of the
                                  11 recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250



DATE:          March 31, 2014

AUDIT
NUMBER:        07601-0001-22

TO:            Philip Karsting
               Administrator
               Foreign Agricultural Service

ATTN:          Kim Cash
               Director
               Compliance, Security and Emergency Planning Division

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Private Voluntary Organization Grant Fund Accountability


This report presents the results of the subject audit. Your written response to the official draft
report, dated March 11, 2014, is included in its entirety at the end of this report, and the Office of
Inspector General’s position is incorporated into the relevant sections of the report.

Based on your written response, we accept management decision on Recommendations 2, 7, 8, 9,
10, and 11. We are unable to accept management decision on Recommendations 1, 3, 4, 5, and
6. The documentation or action needed to reach management decision for these
recommendations are described under the relevant OIG Position sections.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................ 1
Section 1: FAS Internal Controls over Food for Progress Program
Agreements ........................................................................................................... 4
Finding 1: FAD Needs to Develop and Implement Effective Controls for
Improving the Integrity of the Food for Progress Program .............................. 4
         Recommendation 1 ...................................................................................16
         Recommendation 2 ...................................................................................17
         Recommendation 3 ...................................................................................18
         Recommendation 4 ...................................................................................18
         Recommendation 5 ...................................................................................19
         Recommendation 6 ...................................................................................19
         Recommendation 7 ...................................................................................21
         Recommendation 8 ...................................................................................21
         Recommendation 9 ...................................................................................22
         Recommendation 10..................................................................................22
         Recommendation 11..................................................................................23
Scope and Methodology ..................................................................................... 24
Abbreviations ..................................................................................................... 27
Exhibit A: Summary of Monetary Results ...................................................... 28
Exhibit B: Corrective Action Taken by FAS for Prior Audit
Recommendations .............................................................................................. 29
Agency's Response ............................................................................................. 35
Background and Objectives 
Background
The Foreign Agricultural Service (FAS) administers and oversees the United States Department
of Agriculture’s (USDA) grant programs that provide United States agricultural commodities to
feed millions of hungry people in needy countries through direct donations and concessional
programs. Food aid may be provided through four program authorities:

    ·   Food for Peace Act (formerly referred to as Public Law 480, Title I).1
    ·   Food for Progress Act of 1985.
    ·   Section 416 (b) of the Agricultural Act of 1949.
    ·   The McGovern-Dole International Food for Education and Child Nutrition Program.

Food for Progress Program

The Food for Progress Program provides donated commodities, through Private Voluntary
Organizations (PVO), to developing countries and emerging democracies that have made
commitments to introducing and expanding free enterprise elements in their agricultural
economies. The Food for Progress Program’s principle objectives are to improve agricultural
productivity and expand trade of agricultural products for the Food for Progress Program.2
Funding for the program is provided by the Food for Progress Act of 1985 and Food for Peace
Act.3 Agreements are awarded to foreign governments, PVOs, non-profit agricultural
organizations, cooperatives, intergovernmental organizations, or other private entities.4 Under
this program, participants use the donated commodities or proceeds from the monetization5 of
such commodities to implement humanitarian and developmental activities in recipient countries,
pursuant to an agreement with Commodity Credit Corporation (CCC).

The 2008 Farm Bill extended the Food for Progress Program authority to provide assistance to
PVOs in the administration and monitoring of the food assistance programs through fiscal year
(FY) 2012. This authority was extended by Congress through September 30, 2013.6 CCC is

1
  Since FY 2006, new funding for the Food for Peace Program has not been requested because demand for food
assistance using credit financing has fallen or grant programs have been a more appropriate tool.
2
  Food for Progress Program objectives.
3
  According to a Congressional Research Service report, International Food Aid: Background and Issues, May
2013, the Food for Progress Program authorizes CCC to carry out the sale and export of U.S. agricultural
commodities on credit terms or on a grant basis, using either CCC financing or Title I funds. No new funding of
Title I credit sales and grants has been appropriated since FY 2006, although some funding has been provided to
administer previously entered into Title I program agreements.
4
  For the purpose of consistency, non-governmental, non-profit organizations, cooperatives, and intergovernmental
organizations operating food aid grants will be referred to hereafter as PVOs.
5
  Monetization is the process of selling donated United States food aid commodities, in the developing country, to
fund agreement activities.
6
  American Taxpayer Relief Act of 2012, Title VII—Extension of Agricultural Programs, Section 701, 1-Year
Extension of Agricultural Programs, dated January 2, 2013. The Agriculture Act of 2014 reauthorized the Food for
Progress Program.


                                                                         AUDIT REPORT 07601-0001-22                  1
authorized to provide $15 million for administrative costs under the grants and $40 million for
transportation costs. These funds are used to cover expenses involved in the administration and
monitoring of the activities under the agreements, technical assistance related to the monetization
of donated commodities, and transportation, storage, and handling costs for the donated
commodities. If authorized by the agreement, CCC will pay these funds to the PVOs on a
reimbursement basis. Food for Progress Program funding for FYs 2009 through 2011 was as
follows:

                          Food For Progress Program Funding

             Fiscal Year                Funding7                 Commodities
                                         (millions)                (metric tons)
             2009                                     $200           303,400
             2010                                     $147           196,400
             2011                                     $164           240,200
        TOTAL                                         $511           740,000

The Office of Capacity Building and Development (OCBD), Food Assistance Division (FAD)
within FAS is responsible for administering and evaluating Food for Progress Program
agreements from the proposal (pre-award) stage throughout the duration of the agreements.
FAD’s responsibilities, in part, include monitoring agreements through review of required
reports covering agreement activities. Participating PVOs must submit semiannual logistics and
monetization (LogMon) reports, which detail the receipt and disposition of donated CCC
commodities, including the in-country sales proceeds from commodities monetized, income
earned from monetized commodity funds, and disbursements of monetized commodity funds.
Such reports should be submitted to FAS by the dates and for the reporting periods specified in
the agreement, until all of the sale proceeds and income have been disbursed and reported to
FAS. Additionally, PVOs are required to submit quarterly Financial Status Reports, using
Standard Form SF-269, in accordance with their agreement. FAS allows PVOs to submit the
quarterly Financial Status Reports on a semiannual basis, along with their LogMon reports.8

FAD also performs in-country reviews of PVOs to observe project operations, or perform
specific assessments. FAS’ OCBD Management and Evaluation Staff (MES) perform closeout
reviews of Food for Progress Program agreements. Closeout reviews allow FAS to assess
PVOs’ administration of a particular food aid agreement from start to finish.

Since March 1999, we issued two audit reports addressing FAS’ administration of food aid
programs.9 In March 2006,10 we reported that FAS had not implemented OIG audit
recommendations first reported in our March 1999 report.11 The 2006 audit identified five key

7
  Funding represents commodity and transportation values from FAS’ Food Aid Database System. FAS’ Food for
Progress Program agreement portfolio totaled approximately $734.5 million as of September 2011.
8
  Within a semiannual period, two quarterly Financial Status Reports can be submitted to FAS by the PVOs.
9
  50801-6-At, FAS Food for Progress Program PVO Grant Fund Accountability, March 1999, and 07601-0001-At,
FAS PVO Grant Fund Accountability, March 2006.
10
   OIG Audit 07601-0001-At, FAS PVO Grant Fund Accountability, March 2006
11
   OIG Audit 50801-6-At, Food for Progress Program PVOs Grant Fund Accountability, March 1999.


2     AUDIT REPORT 07601-0001-22
weaknesses in FAS’ approval and monitoring of PVO agreements. FAS did not: (1) ensure that
PVOs had received the host countries’ official recognition, (2) conduct adequate onsite reviews
of PVOs, (3) ensure that PVOs had timely and accurately provided semiannual reports of their
operations/expenditures, (4) actively or aggressively pursue mismanaged or lost agreement funds
from PVOs, and (5) perform a review or assessment of PVOs’ past performance prior to
approving new agreements.

We recommended that FAS: (1) implement management controls for reviewing semiannual
reports, conducting on site reviews, and timely completing closeout reviews of all agreements;
(2) confirm that PVOs have received the host countries’ recognition before agreements are
finalized; (3) verify that PVOs have complied with all financial requirements prior to delivery or
receipt of donated funds or commodities; (4) aggressively recover mismanaged agreement funds;
and (5) document and review PVOs’ past performance as part of their application to receive new
food aid agreements. See Exhibit B for corrective actions taken on these recommendations.

GAO issued an audit report12 in May 2011 of its review of another food aid program, the FAS
McGovern-Dole Food for Education Program. GAO recommended that FAS (a) establish a
monitoring process that would systematically analyze and report on a preselected set of
indicators that directly measures the McGovern-Dole Program’s progress toward achieving its
objectives; (b) develop policies and procedures to guide evaluation of completed projects; and
(c) formalize policies and procedures for closing out grant agreements and establish guidance for
when agreements should be closed. FAS agreed with GAO’s recommendations, acknowledging
that proper monitoring and evaluation are essential to improving the quality of measuring the
results of the McGovern-Dole program.

Objectives
Our overall audit objective was to evaluate whether FAS had adequate internal controls to ensure
that PVOs are making proper use of program funds to efficiently and effectively operate Food
for Progress Program agreements and achieve program objectives.




12
  International School Feeding—USDA’s Oversight of the McGovern-Dole Food for Education Program Needs
Improvement, May 2011.


                                                                  AUDIT REPORT 07601-0001-22            3
Section 1:  FAS Internal Controls over Food for Progress Program 
Agreements 
Finding 1: FAD Needs to Develop and Implement Effective Controls for
Improving the Integrity of the Food for Progress Program
One of the fundamental elements to improve oversight of Federal programs is to timely establish
and maintain an internal control structure designed to efficiently and effectively achieve program
objectives. For more than the past decade, FAD has taken steps to improve its internal control
structure for the Food for Progress Program through implementing corrective actions to
recommendations, based on weaknesses identified in previous audits. This has included, for
instance, implementing a new Food Aid Information System (FAIS),13 issuing additional
regulations, providing staff training in agreement evaluation procedures, and hiring a consultant
to assess the program’s controls to better monitor agreements.

Yet, our current audit identified significant control weaknesses similar to those reported in prior
Office of Inspector General (OIG) reports. Specifically, current FAS controls did not provide for
followup on missing PVOs’ semiannual reports, provide adequate reviews of PVO
documentation supporting information reported, ensure PVOs established separate bank accounts
to administer agreements, and ensure PVOs remit interest earnings on CCC advanced
administrative funds.14 These deficiencies occurred because FAS has not developed a strong
management control environment for the Food for Progress Program that includes sufficient
oversight and accountability to ensure corrective actions were fully implemented. FAS had also
not developed and implemented indicators or measures to assess staff performance in meeting its
responsibilities. As a result, FAS cannot promptly determine whether PVOs properly carry out
Food for Progress Program agreements, whether projects are on track to achieve intended results,
or whether program funds have been used for their intended purposes. In total, we questioned
the use and accounting of $685,646 of program funds, and funds to be put to better use, totaling
$8,481.

Office of Management and Budget (OMB) Circular A-123 requires appropriate internal control to
be integrated into each system established by agency management to direct and guide its
operations. Deficiencies found in internal controls should be reported to the appropriate
personnel and management responsible for that area. Deficiencies identified whether through
internal review or by an external audit should be evaluated and corrected. A systematic process
should be in place for addressing deficiencies. OMB Circular A-123 also provides that
management should identify internal and external risks that may prevent the organization from
meeting its objectives. When identifying risks, management should take into account relevant


13
   An FAS official informed us that FAS has challenges in information technology, as the Department has
implemented new accounting systems, Federal Management Modernization Initiative and Web Based Supply Chain
Management, which further complicated FAIS’ implementation. The official said the systems are not fully
interfaced yet, but progress is being made. The official informed us the deficiency was reported in their annual
OMB Circular A-123 certification.
14
   An FAS official stated that the agency has recently developed draft SOPs to address these weaknesses, but they
were implemented too recently for us to determine their effectiveness.


4     AUDIT REPORT 07601-0001-22
interactions within the organization, as well as with outside organizations. Management should
also consider previous findings when identifying risks.

Our review disclosed that FAD implemented a monitoring and evaluation policy that provides
for the integration and implementation of monitoring and evaluation systems and processes into
the Food for Progress Program. The policy provides for PVOs to develop project monitoring and
evaluation plans that include a program-results framework that links to the FAD program
framework. FAD points out in its policy that the monitoring and evaluation information will be
used by the agency to meet its regular reporting and accountability requirements. Our analysis of
FAD’s monitoring and evaluation policy determined that it focuses on PVOs’ performance
monitoring and evaluation systems in implementing their projects. However, the monitoring and
evaluation policy does not emphasize measures that point to FAD’s overall performance in
administering the Food for Progress Program, as the agency indicated in its response to our prior
audit.

FAS’ Compliance, Security and Emergency Planning staff performs management reviews of
program efficiency and effectiveness. We determined that FAS’ Compliance staff had not
conducted any management reviews of FAD since FY 2008. Instead, an FAS official stated that
a decision was made to have an independent review of food aid programs performed to ensure
FAS’ compliance with the provisions of OMB Circular A-123 in their internal control system.
Therefore, they contracted with a consultant to perform an internal control assessment of the
FAS Food for Progress Program.

This consultant’s report, completed in September 2009, disclosed potential control gaps in the
Food for Progress Program grants monitoring process and significant control weaknesses in the
closeout process. The consultant recommended that FAS consider: obtaining additional
resources to conduct a more thorough level of monitoring, increasing resources to effectively
perform the required oversight and monitoring functions, devising and implementing policies
and procedures that clearly define final close out procedures, and including removal of
obligations from the system for expired grants or grants with a final flag on the SF-269.15

FAS officials provided us with their corrective actions to address these significant control
weaknesses that included (1) filling four vacancies which fully staffed the Food for Progress
Program branch, (2) issuing Standard Operating Procedures (SOP), (3) implementing the FAIS to
manage and administer its food aid programs, and (4) implementing the multi-agency WebSCM
system. However, the consultant’s review assessed and documented the Food for Progress
Program controls, but noted that only limited testing of some of these controls was performed.
The report further noted that FAS needed to complete testing of this program in order to confirm
which controls were operating effectively. An FAS official stated that the agency had planned to
contract with this consultant for a followup review, but funding limitations prevented a timely
follow up. In FY 2013, FAS contracted with another consultant to assess the effectiveness of
FAS’ implementation of the recommendations and controls recommended by the prior
consultant. This new consultant completed its report in September 2013.


15
  USDA FAS Internal Controls Assessment of the Foreign Agricultural Service Food for Progress Program,
September 30, 2009.


                                                                    AUDIT REPORT 07601-0001-22           5
Based on these recurring weaknesses, we sought to determine if FAD uses any tools, such as a
risk assessment,16 to identify its Food for Progress Program vulnerabilities, including
administrative/oversight activities. We learned from a FAD official that FAS performs an
overall risk assessment to develop improper payment estimates for departmental outlays related
to OMB Circular A-123 reviews. The official further commented that these reviews are
primarily related to the financial process, but not to individual programs. FAD will benefit from
implementing recommendations from the recently completed risk assessment of the Food for
Progress Program to identify its program risks and vulnerabilities to better assess where added
program controls are needed. Our review highlighted weaknesses in the monitoring of active
agreements and the closeout of completed agreements.

A. Monitoring Controls for Active Food for Progress Program Agreements

FAD continues to experience weaknesses in its monitoring of active Food for Progress Program
agreements. We found that FAD (1) did not always receive and review semiannual reports for
monitoring agreements, (2) cannot reasonably ensure the integrity of the financial information
reported by PVOs in semiannual reports, (3) cannot confirm that PVOs established separate bank
accounts to administer agreements, or (4) did not ensure PVOs remitted interest earnings on
CCC advanced administrative funds. This occurred because FAS’ management did not
formalize and implement policies and procedures necessary to improve its monitoring of ongoing
Food for Progress Program agreements and had concluded that FAIS would resolve these issues.
FAS officials attributed these weaknesses to (1) lack of staffing and a mandate to cut travel
expenses, (2) working in an uncertain budget environment where they did not know what
resources they had to oversee and implement corrective actions, and (3) higher priority given to
awarding of grants as compared to grant monitoring.

1. FAD Did Not Always Timely Receive and Review PVOs’ Semiannual Reports

Food for Progress Program participants are required to submit a LogMon report and quarterly
financial status report to FAD on a semiannual basis. 17 According to FAS’ Food Assistance
Program Implementation Guidebook, the LogMon and financial status reports provide FAD with
a description of how an agreement is progressing and how agreement funds are being used.

We reviewed a sample of 11 agreements18 and determined that 10 of those agreements were
missing at least 2 and as many as 18 LogMon or quarterly financial status reports covering
agreement activities from FYs 2009 through 2011. For 2 of the 10 agreements in question, FAD
was not able to support that it received any of the required reports for FYs 2009 through 2011
activities. Also, FAD had no support for followup actions taken with PVOs to obtain the missing


16
   A risk assessment serves as a tool that management can use to identify internal and external program risks that
may impact its effectiveness in administering programs in accordance with objectives.
17
   Reporting requirements are specified by Title 7 CFR section 1499.13 and 7 CFR sections 3019.51 and 52, and
Food for Progress Program agreements.
18
   Sample derived from FAS “Reports Received Log” maintained by an FAS program official. FAS’ Reports
Received Log showed a total of 65 Food for Progress Program agreements with one or more missing LogMon or
financial status reports. Eleven of the 65 agreements showed 5 or more missing LogMon or financial status reports.
We followed up with FAS on the 11 agreements.


6     AUDIT REPORT 07601-0001-22
reports, nor could it provide a formal policy detailing required actions to address delinquent or
missing semiannual reports. Without these reports, FAD could not properly monitor PVOs’
activities to ensure they complied with terms of their agreements.

FAS’ management believed that FAIS would improve their ability to determine if reports were
missing because they informed us that missing report alerts would be sent to analysts and PVOs.
However, FAS management recently found out that FAIS does not capture all the information
they thought and contain the controls that were explained. The official said that the recently
completed consultant’s review and work with the new systems have disclosed concerns that are
being addressed, such as management reports and automated alerts for delinquent reports. While
FAS’ Monitoring and Evaluation Handbook addressed LogMon and financial status reporting
requirements for PVOs, it did not provide for detailed required actions of the agency when these
reports were delinquent or missing. When we discussed this finding with FAD, its officials
informed us they will penalize PVOs on future proposals in addressing delinquent reports. They
provided us with an informal document identified as a SOP for handling reports through the FAIS,
with specific detailed actions for FAD analysts to follow when reports are missing. We noted,
however, that FAIS does not have a built-in control to automatically alert analysts and FAS’
management of missing PVO reports.

While penalties on future proposals of PVOs may be beneficial, this action does not provide
resolution for delinquent semiannual LogMon reports for the active agreements. We maintain
that FAD still needs improved management oversight and a formal policy or procedure
addressing its responsibilities for delinquent or missing semiannual reports. Delinquent or
missing semiannual LogMon reports negatively impacts FAD’s’ ability to timely and effectively
monitor, as well as timely close, Food for Progress Program agreements.

We previously reported FAS’ weaknesses in monitoring semiannual LogMon reports in our
March 2006 audit report. We recommended that the agency implement management controls for
reviews of semiannual LogMon reports, as the agency had agreed upon in response to our
March 1999 report. For final action, FAS provided the Office of the Chief Financial Officer with
a copy of its Monitoring and Evaluation Handbook, and confirmed that its planned training of
staff in evaluation procedures for agreements was completed in January 2006. However, our
analysis of the monitoring and evaluation handbook disclosed that there were no detailed
procedures addressing controls over FAD’s receiving and reviewing semiannual reports. FAD
did not always have documentation to support its review for those semiannual LogMon and
financial status reports received. FAS recently developed a draft SOP to address these controls.




                                                               AUDIT REPORT 07601-0001-22           7
2. FAS’ Monitoring Was Not Sufficient to Detect PVOs’ Unallowable Costs for Active
   Agreements

Though FAD’s management controls provide for routine review of LogMon and financial status
reports, it does not provide for FAD to review supporting documentation of project costs in these
reports.19 FAS officials explained that the reports are reviewed to ensure that the actual reported
activities match the objectives of the agreement and that they do not verify costs as part of their
reviews of the PVOs’ reports. FAS officials stated that they rely on the A-133 audits of the PVOs
to ensure costs are proper. We reviewed supporting documentation for two Food for Progress
Program agreements administered by the PVO TechnoServe and found questioned and
unsupported costs of $652,816 (see Exhibit A).20

We determined TechnoServe charged unallowable costs, totaling $132,352,21 on a 2007 and a
2010 Food for Progress Program agreement as follows:

     ·    In the 2007 agreement, TechnoServe charged expenses totaling $77,888 for monetization
          services of commodities that, based on the invoice date, took place prior to the effective
          date of the 2007 Food for Progress Program agreement. The invoice for the monetization
          services was dated March 2007, 5 months prior to the effective date of the PVO’s 2007
          Food for Progress Program agreement. Our review disclosed that the commodities for
          the 2007 agreement were monetized during 2008. The amount of monetized
          commodities disclosed in this invoice matched a commodities shipment amount
          associated with a 2006 food aid agreement. Therefore, we concluded that these expenses
          were associated with an earlier 2006 food aid agreement the PVO had with FAS.
     ·    In another instance, TechnoServe charged expenses for consulting services and lodging in
          its 2007 Food for Progress Program agreement, totaling $13,500 and $27,463,
          respectively. Our review of supporting documentation disclosed these expenses were for
          a seminar associated with the PVO’s 2010 Food for Progress Program agreement and,
          therefore, were not eligible expenses for the 2007 agreement. TechnoServe’s 2007 and
          2010 Food for Progress Program agreements contain distinct objectives and activities. In
          signing each agreement, TechnoServe officials agreed to use monetization proceeds in
          accordance with the activities outlined in each agreement. Federal regulations provide
          that recipients are required to report deviations from budget and program plans, and
          request prior approvals for budget and program plan revisions. 22



19
   FAS’ Food Assistance Program Implementation Guidebook provides that full accounting of funds must be
maintained by the participant. Accounting records must (1) contain information pertaining to Federal awards,
authorizations, obligations, unobligated balances, assets, expenditures, and interest; (2) provide a comparison of
expenditures with budgeted amounts; and (3) be supported by source documentation. An adequately documented
expenditure is one that can be supported with a proof of payment document (cancelled check, official receipt, bank
wire transfer advice, etc.) and accompanying invoices, receipts, travel documents, vouchers, contracts, purchase
orders, time sheet, etc., as applicable to the nature of the transaction.
20
   The $652,816 aligns with the sum of Exhibit A line item amounts $132,352 and $520,464.
21
   The unallowable costs figure of $132,352 is rounded from the PVO’s expenses in question, totaling
$132,351.56 ($77,888.16, $13,500.00, $27,463.40, and $13,500.00)
22
   Title 7 CFR 3019.25, dated January 1, 2003.


8        AUDIT REPORT 07601-0001-22
     ·   We also found that the same $13,500 consulting service expense was duplicated as an
         expense in TechnoServe’s accounting records for the 2010 Food for Progress Program
         agreement. The expense was incurred in advance of the 2010 agreement date and had not
         been approved by FAS. PVOs are required to obtain FAS’ approval to use monetization
         sale proceeds for expenses incurred in advance of the agreement date.23

TechnoServe’s officials agreed with our position that the costs were unallowable. They offered
no explanation as to why these events occurred. FAS officials acknowledged they had not
approved any costs prior to signing the agreements in question.

Additionally, TechnoServe could not support $520,464 of costs reported under its 2006 Food for
Progress Program agreement. In its final LogMon report for the 2006 agreement, the PVO
reported expenses of $520,464, while reporting a reduction of an equal amount of expenses in its
final LogMon for the 2007 agreement.24 TechnoServe officials informed us that, due to the lack
of supporting spreadsheets and backup files available, they were unable to explain the reporting
or provide details of the $520,464 in expenses. In addition, officials told us that key accounting
personnel at that time have since left the organization and that the accounting system at that time
made it very difficult to identify the actual expenses reported. They stated that their new
accounting system better captures project costs by cost center to more accurately charge
expenditures to projects.

In our March 2006 audit report, we recommended that FAS establish and implement procedures
to conduct detailed evaluations of all open food aid agreements with activities still underway.
FAS responded that it improved evaluation procedures in its Monitoring and Evaluation
Handbook, and provided training in agreement evaluation procedures for monitoring and
programming staff. FAS expected to have more resources available for greater review of open
agreements since the number of new agreements entered into had been dropping since 2003.
Despite these efforts, we continue to note weaknesses in its monitoring process.

FAS’ compliance review staff conducts compliance reviews of food aid program agreements to
evaluate PVOs’ compliance with Food for Progress Program requirements. PVOs’ agreements
are randomly selected for review, but are sometimes also conducted for organizations that have a
history of known problems. The compliance review procedures include verification of
supporting documentation from the PVOs. From FYs 2006 through 2012, FAS compliance staff
conducted 21 Food for Progress Program reviews. TechnoServe was not selected for a
compliance review from FYs 2006 through 2012. We concluded that FAS did not establish a
minimum cycle for PVO reviews, such as once every five years.




23
  Title 7 CFR 1499.5, dated January 1, 2003.
24
  The $520,464 unsupported costs reduction from the PVO’s 2007 agreement expenses was based on its
determination that the costs were for expenses associated with a 2006 Food for Progress Program agreement. Even
so, the PVO lacked supporting documentation for the $520,464 in costs reported to OIG. Due to the PVO’s lack of
supporting documentation, OIG was not able to validate the figures.


                                                                       AUDIT REPORT 07601-0001-22             9
3. FAS Did Not Ensure that PVOs Maintained Separate Bank Accounts

Title 7 Code of Federal Regulations (CFR) section 1499.11(e) provides that the participant shall
deposit all sale proceeds and income into a separate, interest-bearing account.25

In our 2006 audit report, we recommended that FAS amend the regulations to require PVOs and
other cooperating sponsors to provide evidence that they have opened separate in-country bank
accounts for deposit of monetization proceeds and disbursement of local funds to conduct
program operations. Our current review disclosed that FAS did incorporate changes into the
application process for agreements requiring PVOs to assure that sale proceeds and income
received would be deposited into a separate interest-bearing account and disbursed from said
account for use only in accordance with the agreement.26

Despite PVOs certifying on their financial reports that they would establish a separate interest-
bearing account, we did not find internal controls in place for FAD to confirm that PVOs
established separate accounts for in-country agreement activities. In fact, we found that
TechnoServe did not maintain a separate interest-bearing bank account for monetization funds
for its 2010 Food for Progress Program agreement.27 TechnoServe maintained a series of bank
accounts (in-country and United States-based) for all of its program activities, where funds from
USDA and private entities were deposited and commingled. FAD did not verify that
TechnoServe’s ledgers reconcile to supporting bank statements and did not require the PVO to
certify that its project bank account is not commingled with other funds. As a result, we could
not confirm an accurate fund balance of monetization funds for the agreements.

Also, for TechnoServe’s 2007 agreement, we could not determine the accuracy of interest earned
because the funds were not maintained in dedicated agreement bank accounts. We determined
that $288,806 in interest earned was recorded in the PVO’s general ledgers and related bank
statements. However, TechnoServe reported only $265,180 in interest on its revised LogMon
report. Thus, TechnoServe understated $23,626 of interest earned for deposited monetization
proceeds on the LogMon reports.

4. Interest Earnings Were Not Remitted to CCC

Food for Progress Program regulations require PVOs to return advanced CCC administrative
funds and accrued interest if the funds have not been obligated by the PVO by the 180th day after
the advance was made. Also, the regulations require advanced CCC administrative funds to be
held in an interest-bearing account.28 Such funds and interest must be transferred to FAS within
30 days of the expiration date. FAS advanced CCC administrative funds for three of the six
PVO agreements reviewed. In two of these instances, the PVOs held the advanced funds in

25
   Title 7 CFR section 1499.11(e) also includes exceptions to this requirement that are contained in section
3019.22(k) of this title. FAS may exempt a PVO from this requirement if the account is in a country where the laws
or customs prohibit the payment of interest or FAS determines that this requirement would constitute an undue
burden.
26
   FAS amended the Food for Progress Program regulations, effective May 2009, requiring PVOs to deposit all sale
proceeds and income into a separate interest-bearing bank account for PVO activities.
27
   TechnoServe’s 2010 Food for Progress Program agreement was signed September 29, 2010.
28
   Title 7 CFR section 1499.6.


10      AUDIT REPORT 07601-0001-22
excess of 180 days, and FAS was not able to support or explain why it did not follow up with the
PVOs as to the status of the funds.

   ·   For example, PVO Agricultural Cooperative Development International and Volunteers
       in Overseas Cooperative Assistance (ACDI/VOCA) was initially advanced $754,035 in
       CCC administrative funds during the quarterly reporting period ended March 31, 2009,
       thereby reaching its 180-day time limit on holding the funds by September 30, 2009.
       ACDI/VOCA reported using $345,522 of the advanced funds by September 30, 2009,
       leaving a remaining balance of $408,513 that was not reported as fully expended until the
       reporting period ended June 30, 2010, based on our review of documentation. We did not
       find support for FAD’s follow up with the PVO as to the status of the funds in
       determining if the funds had been obligated by the PVO or needed to be returned to the
       Federal Government. Additionally, during this 15-month period, ACDI/VOCA did not
       report any interest earnings in holding the advanced CCC administrative funds. FAS
       advanced ACDI/VOCA another $653,565 in CCC administrative funds during the
       reporting period ended December 31, 2010. The PVO reported using $599,447 of the
       advanced funds by June 30, 2011, leaving a remaining balance of $54,118. ACDI/VOCA
       expended this entire amount by September 30, 2011, a year after the funds were
       advanced. In this instance, the PVO reported total interest earnings of $817 by the
       reporting period ended March 31, 2011, and a total of $1,100 by the reporting period
       ended June 30, 2011. After we followed up with FAD officials to determine if
       ACDI/VOCA returned the interest, FAS provided us with a cash advance document
       approved during December 2011, which showed that interest in the amount of $1,162 had
       been offset from an additional advance.
   ·   PVO Mercy Corps was advanced $227,872 in CCC administrative funds during the
       quarterly reporting period ended March 31, 2007, reaching its 180-day time limit for
       holding the funds by the reporting period ended September 30, 2007. Mercy Corps
       reported using $37,030 of the advanced funds by September 30, 2007, leaving a balance
       of $190,842. Mercy Corps reported expending $188,902 of the remaining
       $190,842 during the reporting period ended September 30, 2011, 4 years following the
       initial advance. We did not find support for any FAD follow up with Mercy Corps as to
       the status of the funds in determining if the remaining funds had been obligated by Mercy
       Corps as of September 2007, or needed to be returned to the Federal Government. Mercy
       Corps did not remit interest earnings on the CCC advanced funds in the amount of
       $9,204. A FAD official acknowledged having no record to support that Mercy Corps
       remitted the interest earned to CCC. FAD officials offered no further explanation or
       support for any effort it made to obtain the interest earnings due to CCC.

FAS did not have requirements for its staff to follow up with PVOs on delinquent interest
earnings due to CCC or required followup actions once the 180-day timeframe expires for
outstanding advanced CCC administrative funds. FAS officials provided us with a draft
document to address followup action on outstanding interest; however, the procedures did not
address its followup actions on remaining advanced CCC administrative funds once the 180-day
timeframe expires.




                                                           AUDIT REPORT 07601-0001-22        11
We conclude that FAS can minimize these types of program management deficiencies, which
resulted in questioned and unsupported costs totaling $685,646,29 by establishing additional
management controls or strengthening existing ones for monitoring Food for Progress Program
agreements. We believe these actions would lead to improving overall Food for Progress
Program monitoring accountability and effectiveness.

B. Closeout Process Controls Over Completed Food for Progress Program Agreements
   Were Inadequate

A key element of FAS oversight and evaluation of PVO agreements is found in the closeout
reviews that the MES conducts. These reviews enable FAS to perform a written assessment of
an agreement and settle any payment due to or from the PVO. Our March 2006 audit report,
which was a followup to our 1999 audit, disclosed that internal control weaknesses continued
with FAS’ timely review and closure of completed food aid agreements. Although FAS has
instituted corrective actions, including development of a manual tracking system, these
corrective actions have not been effective to ensure timely agreement closure. FAS implemented
a closure checklist and an inventory of agreements for closure as a result of our prior audits, but
these actions did not include specific timeframes for closing agreements and were not sufficient
to ensure completed agreements were timely reviewed and closed in USDA’s accounting
systems. We found that a MES official maintained an inventory of agreements awaiting closure;
however, the inventory did not contain sufficient information, such as the status of closure or
when the agreement was received by MES. In addition, a FAS official stated that the MES
director position has been vacant for almost 3 years. This official stated that she made an effort
to reorganize MES and FAD staffing and functions, and also asked for more resources in these
areas to better serve the program, but it was not approved. By not timely performing closeout
reviews, FAS cannot ensure that Federal funds were properly used to accomplish program
objectives; timely implement corrective actions on PVO activities, as necessary; accurately
report the outcome of Food for Progress Program agreements; and identify and collect improper
payments.

The agency is responsible for ensuring that PVOs and other cooperating sponsors comply with
their food aid agreements. Federal regulations stipulate the agency’s and grant recipients’
responsibilities for grant funds.30 Those regulations provide that recipients shall submit, within
90 calendar days after the date of completion of the award, all financial, performance, and other
reports, as required by the terms and conditions of the award.31 FAS’ Food Assistance Program
Implementation Guidebook provides a general closeout process outline, a closeout checklist, and
equipment disposition for MES’ independent agreement review and closeout.32 Also, FAS
executed a Memorandum of Understanding (MOU) with the Farm Service Agency (FSA) to
provide financial services to FAS, including the accounting of Food for Progress Program
agreements and related Treasury reporting requirements.


29
   The $685,646 aligns with the sum of exhibit A line item amounts $132,352, $520,464, $23,626, and $9,204.
30
   OMB Circular A-110, “Uniform Administrative Requirements for Grant and Agreements with Institutions of
Higher Education, Hospitals, and other Non-Profit Organizations,” as amended September 30, 1999.
31
   7 CFR 3019.71, dated January 1, 2003.
32
   FAS Food Assistance Program Implementation Guidebook, Part 8, Program Closeout, undated.


12      AUDIT REPORT 07601-0001-22
Closeout reviews are FAS’ control to assess a PVO’s administration of a particular food aid
agreement from start to finish before disbursing the final 15 percent allotment of CCC
administrative grant funds to the PVO. The reviews also allow FAS to determine if there are any
subsequent disallowances and adjustments, and enable FAS to evaluate a PVO’s performance
and determine whether it should be awarded new agreements.

1. SOPs Are Needed to Monitor Agreement Closure Process

Our March 2006 audit report disclosed control weaknesses in FAS’ agreement closure process,
including that FAS did not timely conduct the required final agreement closeout reviews. FAS
agreed to develop procedures to timely review and close out agreements, maintain an inventory
of agreement closeout requests, and provide these closeout procedures by June 2006. In
May 2011 FAS drafted closeout procedures that included action timeframes for the closeout
process but had not established these procedures in a formal agency handbook. As of
April 2013, we found that FAS had not established effective controls that included timeframes
and milestones for completing closure reviews and tracking inventoried agreements throughout
the closeout review process.

While FAS had general policies and procedures for its final review and closeout of Food for
Progress Program food aid agreements, it had not established a formal system to track
inventoried agreements through the closeout process. In October 2011, FAS’ closure list
contained 30 agreements inventoried by MES for a closure review.

                                  Closure Status                                  No. Agreements
             Active - under MES review                                                   3
             Active - completed, awaiting signature                                      4
             Active - referred to Compliance                                             2
             Active - issue sent to PVO for response                                     1
             Waiting33 - still with analyst                                              7
             Waiting - not received by MES for closeout                                 13
             TOTAL                                                                      30

For the 30 inventoried agreements listed, MES was actively working to close 10 agreements and
awaiting 20 agreements from FAD analysts. Our analysis of the closure database found it did
not document when agreements were received and entered into the closure database, track
actions taken to close the agreements, or document what additional documentation was missing
and being sought from the PVO. FAS officials acknowledged the need for and an interest in
developing a more formal system to track an agreement through the closure process. Further, a
MES official stated that, while she knew the exact status of each agreement on the list, she
recognized the database did not track the steps necessary for agreement closure or the length of




33
  FAS’ closure inventory of agreements identified two waiting categories. The first category “still with analyst” is
an agreement where the analyst is waiting on the PVO to provide requested information. The second category “not
received by MES for closeout” is an agreement where the analyst is waiting for FAD to provide the agreement file.


                                                                        AUDIT REPORT 07601-0001-22               13
time that had elapsed since the PVO reported it completed its agreement. Thus, neither we nor
MES management could determine how long these agreements had been waiting for a final MES
review and closeout without reviewing each closeout file.

2. Delays in Closing Food for Progress Program Agreements Continue

Our 2006 audit report disclosed that FAS was not timely closing agreements and had a backlog
of agreements awaiting closure. Despite the fact that FAS cleared a number of old agreements
from the prior audit, we found that FAS’ procedures still do not establish or define what is a
timely closure.

OMB Circular A-110 requires recipients within 90 days after the date of completion of the award
to submit financial, performance, and other reports required by the agreement.34 From
February 2008 through August 2011, FAS closed 161 Food for Progress Program agreements.
We judgmentally35 selected six closed agreements and found that none of the agreements were
timely closed; in fact, it took FAS from 15 to 112 months to close these agreements after the
final LogMon36 was received, as noted in the following table.

                        Fiscal                             Closure           Elapsed
     Agreement                    Final LogMon                                            Closure Action
                        Year                                Letter           Months
 1 – Vietnam            2002      August 200737         June 2011               46        Formal Review
 2 – Afghanistan        2005      June 2010             January 2012            19        No Review38
 3 – Bolivia            2003      June 2006             June 2010               48        Formal Review
                                                                                          Administrative
 4 – Azerbaijan         1995      October 1998          February 2008           112
                                                                                          Closure39
                                                                                          Administrative
 5 – Bangladesh         1998      February 2005         March 2008               37
                                                                                          Closure
 6 – Philippines        2004      May 2010              August 2011              15       Formal Review

Our analysis of the six closed agreements found that it took MES 15, 46, and 48 months to close
three agreements that received a formal closure review; 37 and 112 months to administratively


34
   7 CFR 3019.71, as of January 1, 2003.
35
   Agreements were selected in FY 2011 to include agreements with the (1) largest dollar amount of recently closed
agreements, (2) largest administrative cash grant FAS provided, (3) date that most agreements were closed by MES,
(4) year that most agreements were closed by MES, (5) agreements that OIG had reported issues with the PVO in
the prior audits, and (6) a closed agreement file that was available while we were waiting for FAS to pull the other
five files selected for review.
36
   The final LogMon report notifies FAS that the PVO has completed its activities and the agreement should be
closed.
37
   Agreement was completed in August 2007 the final LogMon report was filed in May 2011, which was a 46-month
delay in submission.
38
   This was an intergovernmental agreement. FAS cannot dictate to a foreign government a closure request, so these
types of agreements are closed without a review.
39
   For an administrative closure, FAS completes an “Advance Triage for Food Aid Agreement Closeouts” form that
was to provide sufficient information on the status of an agreement for MES and OGC to collaboratively determine
the appropriate level of effort and resources required to close the agreement and the process by which the agreement
will be closed.


14      AUDIT REPORT 07601-0001-22
close two agreements without a formal review, and 19 months to close one agreement without a
formal review.

In our 2006 audit report, we reported that 206 backlogged agreements needed closure. Our
current review disclosed that to eliminate the reported backlog of older completed agreements
waiting for closeout review, FAS administratively closed backlogged agreements without a
formal review. For administratively closed agreements, FAS completed an “Advance Triage for
Food Aid Agreement Closeouts” form. This form was provided to the Office of the General
Counsel (OGC) to collaboratively determine the appropriate level of effort and resources
required to close the agreement and the process by which the agreement would be closed. FAS
explained that it could not take any actions against the PVO because the agreements awaiting
closure reviews were so old that the statute of limitations of 6 years had elapsed, preventing any
collection action should a review disclose a problem. We identified an additional 13 agreements
sent to OGC for administrative closure. FAS lost the opportunity to evaluate these PVOs’
performance, collect improper payments, and determine whether they should be awarded new
agreements.

FAS officials said that the new FAIS will report cumulative agreement results in the semiannual
LogMon reports. FAS officials explained that, in the past, although the final LogMon report
notified FAS an agreement was ready for closure, it was not itself a cumulative report. Analysts
had to receive all of the PVO’s LogMon reports before an agreement was ready for closeout. It
could take months for a PVO to respond and provide missing documentation. For example, the
PVO for one of our selected closed agreements took 45 months to file its final LogMon report
for an agreement completed in August 2007. Further, FAS has not implemented monetary
penalties40 when PVOs fail to respond to FAS closure documentation requests necessary to close
agreements.

An FAS official stated another problem in closing out agreements involves having to wait on the
final indirect cost recovery rate, which has to be negotiated. This official stated that writing a
closeout date into the agreement language could remedy the situation.

3. FAS and FSA Need to Improve Communications

In August 2007, FAS executed a MOU with FSA to obtain accounting services for its food aid
agreements. As part of this agreement, FAS must notify FSA when food aid agreements are
completed, so that the agreements can be closed in USDA’s financial accounting system and
unspent funds can be deobligated.

We found that the MOU was out-of-date and needs to be updated to clearly define the agreement
closure process, controls, and responsibilities for both FAS and FSA. In addition, FAS did not
have written procedures in place that provided its staff specific instructions, detailing their
responsibilities and required documentation necessary for closing agreements with FSA.
Further, FAS relied on its monthly meeting with FSA and does not have procedures in place


40
  7 CFR Part 3019.62, dated January 1, 2003, provides for agency enforcement actions, including fines, for grant
recipients’ non-compliance.


                                                                       AUDIT REPORT 07601-0001-22              15
requiring its staff to document and confirm that FSA has, in fact, closed agreements in USDA’s
accounting systems.

For example, MES closed an agreement in June 2011 and provided FSA with a copy of its
closure letter. Because FAS’ MOU with FSA does not provide specific instructions detailing
responsibilities and required documentation necessary for closing agreements, the MES closure
letter did not provide specific instructions to FSA for closing the agreement and deobligating
remaining funds. In January 2012 (7 months later), we contacted FSA to confirm whether the
agreement was closed and the funds were deobligated. We found that FSA had not closed the
agreement or deobligated the remaining funds. After our contact with FSA, the agency
deobligated $16,828 remaining in USDA’s accounting system for the agreement. We noted that
FAS’ documentation showed that $8,347 should have been deobligated, a discrepancy of $8,481.

FAS officials explained that they have a working relationship with FSA for accounting services,
including monthly coordination meetings for FAS food aid programs, where the monthly status
of funds for agreements and monthly accounting reports are discussed. Officials conceded they
need to clearly spell out each agency’s expectations. These officials stated they are in the
process of updating the MOU and that this process should be completed in the next 60 days.
Also, formal procedures for closeout of agreements are being developed.

We determined that to address the agreement closure control weaknesses detailed above, FAS
needs to implement policies and procedures necessary to ensure that completed Food for
Progress Program agreements are timely reviewed, tracked through the closure process, closed
out accurately and timely in USDA’s accounting systems, and assessed monetary penalties when
PVOs do not timely respond to closure requests.

Overall, we concluded that FAS needs added management oversight and controls to periodically
assess corrective actions taken to address Food for Progress Program weaknesses. This would
involve determining if program management controls are working, performing a risk assessment
to identify program vulnerabilities and areas where both immediate and long-term program
delivery improvements are needed, and clarifying measures for FAS staff in delivering the Food
for Progress Program. Without establishing adequate internal program management controls for
the Food for Progress Program, FAS cannot reasonably ensure that Federal funds are being used
properly to accomplish program objectives.

Recommendation 1
Complete a risk assessment of the Food for Progress Program administrative and oversight
activities, in accordance with OMB Circular A-123, to (1) identify vulnerable program areas, and
develop and implement controls where identified weaknesses exist; (2) periodically assess the
effectiveness of corrective actions taken to address program weaknesses; and (3) develop and
implement performance measures for FAD and the MES in overseeing and delivering the
program.




16     AUDIT REPORT 07601-0001-22
Agency Response
In its March 11, 2014 response, FAS agreed with this recommendation and stated that a
consulting firm was hired during FY 2013 to conduct a risk assessment, in accordance with
OMB Circular A-123, of the internal controls and existing policies, procedures, and operating
systems used in the management of FAS food assistance programs. The consulting firm assessed
FAS’ progress to date in implementing corrective actions in response to findings identified in
previous audits and studies, including those conducted by OIG and GAO, and in the prior risk
assessment conducted in 2009. The consultants also identified weaknesses that still need to be
addressed, and they completed the risk assessment in September 2013.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to provide an estimated completion date that the agency will fully
implement a corrective action plan to address control weaknesses identified by the consultants.

Recommendation 2
Designate a senior management official with sufficient authority to ensure all current and prior
recommendations are fully addressed, that includes ensuring adequate controls for timely closure
of Food for Progress Program agreements, PVO proper accounting, PVO timely reporting, and
PVO agreement monitoring. Evaluate the OCBD staffing to determine if additional personnel
for monitoring and closeouts of the Food for Progress Program are needed, and implement a plan
to increase or reorganize staff to prioritize associated risks and properly align staff to meet
program needs.

Agency Response
FAS agreed with this recommendation and stated that the FAS Deputy Administrator for OCBD is
responsible for ensuring that all current and prior recommendations are fully addressed. The
Deputy Administrator will initiate corrective actions that include the implementation of adequate
controls for timely closure of food assistance agreements, PVO accounting and timely reporting,
and FAS monitoring of PVO agreements.

FAS stated it will also engage an independent consultant to perform a human capital assessment of
FAD that will include an evaluation of its staffing requirements as well as the other OCBD staff
support necessary to strengthen management of the food assistance programs to be finished by
September 2014, and any FAS actions taken as a result will be completed by March 31, 2015.

OIG Position
We accept management decision for this recommendation.




                                                            AUDIT REPORT 07601-0001-22        17
Recommendation 3
Recover from TechnoServe (1) the $132,352 in unallowable or unsupported costs improperly
charged to the 2007 and 2010 Food for Progress Program agreements, and (2) the $23,626 of
unreported interest earned by this PVO.

Agency Response
FAS agreed with this recommendation and stated that any unallowed or unsupported costs, and
any unreported interest earned, should be recovered from the TechnoServe. In response to OIG
concerns, FAS initiated a financial and compliance review at TechnoServe in June 2013, and if it
is determined that TechnoServe improperly charged any costs, or retained any unallowed interest
earned on federal funds, FAS will initiate efforts to recover those funds by June 30, 2014.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to complete its review of TechnoServe and either provide (1) a copy of the
bill for collection for amounts owed to the Government and documentary support that the
amounts have been entered as a receivable on the agency's accounting records, or (2) provide
sufficient documentary evidence that the costs were allowable or supported.

Recommendation 4
Recover the $9,204 in interest earnings due to the CCC from Mercy Corps, along with any
additional amounts earned in conjunction with advanced CCC administrative funds, for its
2006 Food for Progress Program agreement.

Agency Response
FAS agreed with this recommendation and stated that it will review this finding and if it is
determined that Mercy Corps retained any unallowed interest earned on Federal funds, or improperly
earned and retained any additional amounts connected to the 2006 Food for Progress agreement, FAS
will initiate efforts to recover those funds by June 30, 2014.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to complete its review of Mercy Corps and either provide (1) a copy of the
bill for collection for amounts owed to the Government and documentary support that the
amounts have been entered as a receivable on the agency's accounting records, or (2) provide
sufficient documentary evidence that the interest earned was allowable.




18     AUDIT REPORT 07601-0001-22
Recommendation 5
Review TechnoServe’s remaining disbursements (use of funds) associated with its
2007 agreement, including the $520,464 of unsupported costs to the 2006 agreement, and
recover any additional unallowable or unsupported costs, if applicable.

Agency Response
FAS agreed with this recommendation and stated that it initiated a financial and compliance
review at TechnoServe in June 2013. If it is determined that TechnoServe improperly charged
any costs, or retained any unallowed interest earned on federal funds, FAS will initiate efforts to
recover those funds by June 30, 2014.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to complete its review of TechnoServe and either provide (1) a copy of the
bill for collection for amounts owed to the Government and documentary support that the
amounts have been entered as a receivable on the agency's accounting records, or (2) provide
sufficient documentary evidence that the costs were allowable or supported.

Recommendation 6
Evaluate the monitoring process to better identify PVOs for compliance reviews and increase
onsite reviews, to include reviewing financial activities of active Food for Progress Program
agreements. Ensure during compliance reviews that PVOs have separate bank accounts when
required.

Agency Response
FAS agreed with the first part of this recommendation and stated that it already has improved the
monitoring of food assistance agreements substantially during the past 3 years by strengthening
SOPs and increasing the number of compliance reviews. Nevertheless, FAS will evaluate its
monitoring process to better target PVOs for compliance reviews and increase onsite reviews, to
include reviewing financial activities of active Food for Progress Program agreements, to
determine if there are any further steps to be taken. The results of this evaluation will be
available by September 30, 2014.

FAS does not agree with a need to ensure PVOs have separate bank accounts. FAS does not
require that PVOs maintain a separate bank account for each individual grant agreement but FAS
does require that PVOs have sufficient controls in place to provide segregated accounting for
each grant agreement. This is consistent with: (1) the achievement of Management Decision and




                                                             AUDIT REPORT 07601-0001-22         19
OCFO acceptance of Final Action on the issue in OIG’s 2007 audit,41 (2) 7 CFR 3019.22(i)(1)
which states that “Federal awarding agencies shall not require separate depository accounts for
funds provided to a recipient or establish any eligibility requirements for depositories for funds
provided to a recipient,” and (3) the imminent provisions of 2 CFR 200, which is expected to be
adopted and incorporated by reference into all Departmental and program-specific regulations by
December 31, 2014. During its reviews, Compliance ensures that PVOs can properly account
for Food for Progress funds within each agreement.

OIG Position
We agree with the actions taken by FAS for the first part of this recommendation. However, we
are unable to reach management decision for this recommendation as FAS needs to further
address the second part of this recommendation. FAS does not agree with a need to ensure
PVOs have separate bank accounts.

Yet, Food for Progress Program agreements are subject to the terms and conditions set forth in
7 CFR Part 1499. The provisions set forth in 7 CFR Part 1499.11(e), provides that the
participant shall deposit all sale proceeds and income into a separate, interest-bearing account
unless the exceptions in § 3019.22(k) of this title apply, the account is in a country where the
laws or customs prohibit the payment of interest, or FAS determines that this requirement would
constitute an undue burden. Provisions in § 3019.22(k) of this title provides that recipients
should maintain advances of Federal funds in interest bearing accounts, unless (1) the recipient
receives less than $120,000 in Federal awards per year, (2) the interest bearing account would
not be expected to earn interest in excess of $250 per year on Federal cash balances, or the
depository would require an average or minimum balance so high that it would not be feasible
within the expected Federal and non-Federal cash resources. These provisions were incorporated
into 7 CFR Part 1499.11(e) in 2009, after the “Achievement of Management Decision” and
OCFO acceptance of Final Action on this issue in OIG’s 2006 audit report. Also, FAS had not
determined that our cited PVO had, in fact, met any of these exceptions and justifications were
not documented that the PVO was exempt from this requirement.

FAS also disagreed with the need to ensure PVOs have separate bank accounts based, in part,
based on 7 CFR Part 3019.22(i)(1) as cited above. This provision states that except for situations
described in paragraph (i)(2) of this section, Federal awarding agencies should not require
separate depository accounts for funds provided to a recipient or establish any eligibility
requirements for depositories for funds provided to a recipient. However, paragraph (i)(2) states
that advances of Federal funds shall be deposited and maintained in insured accounts whenever
possible. We concluded that since the monetization proceeds are generated via sale(s) of
advanced donated commodities to PVOs, paragraph 1 of the cited CFR would not apply.

Therefore, we concluded that FAS’ position that PVOs are not required to have separate bank
accounts based on its cited CFR reference does not take into account requirements in Parts
1499.11 (e) and 3019.22 (i)(2). Our cited CFR provisions as implemented by FAS through the

41
  OIG’s most recent audit report issued addressing PVO Grant Fund Accountability, Report No. 07016-1-At, was
dated, March 15, 2006. Contrary to FAS’ reference to a 2007 audit, OIG did not perform an audit or issue a report
addressing PVO Grant Fund Accountability in 2007.


20      AUDIT REPORT 07601-0001-22
rule making process provide the necessary controls to ensure the accountability and integrity of
funds provided by FAS for food aid agreements and should be enforced. To reach management
decision, FAS needs to enforce the requirements of the regulations that require PVOs to maintain
separate bank accounts or provide justification as to why the provisions do not apply.

Recommendation 7
Implement formal policies or procedures for FAD staff, including supervisory monitoring to
(1) address agency responsibilities concerning delinquent LogMon and financial status reports,
including timeframes for followup action with PVOs and review of reports; and (2) require FAD
to follow up with PVOs to obtain delinquent interest earnings due to CCC. Incorporate
automated alerts and edit checks into FAIS to assist staff monitoring functions, where possible.

Agency Response
FAS agreed with this recommendation and stated that it has begun to implement formal policies
and procedures for FAD staff related to monitoring and collection of interest earnings. Since
OIG’s review FAS has developed policies and procedures for supervisory monitoring of
performance reports. All program analysts are required to enter comments into FAIS for all
performance reports submitted for agreements in their portfolio. FAD managers are able to
easily run a report from FAIS to review whether comments were entered for all performance
reports received to ensure that each analyst has reviewed his/her assigned reports. The FAD
director and branch chiefs meet with each individual employee’s manager to review the reports
received and to discuss project progress and agreement issues. Necessary actions identified
within the meetings are added to the FAD’s tracking system. In February 2013 FAS hired an
additional staff member to track and review all semi-annual financial reports. This staff member
reviews each report that is received, brings any issues or concerns to the attention of FAD
managers and meets individually with each program analyst to discuss the financial reports for
the agreements under his/her purview.

FAS is working to draft and implement new SOPs that are in accordance with 7 CFR 3019.22(l)
regarding interest earned above $250 by September 30, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 8
Implement internal controls that provide formal policies and procedures, including supervisory
monitoring and reviews, to track agreements throughout the closeout process to ensure the timely
closure of Food for Progress Program agreements. Incorporate automated processes within the
FAIS, where possible.




                                                           AUDIT REPORT 07601-0001-22        21
Agency Response
FAS agreed with this recommendation and stated that it recently has updated its SOPs for the
closeout process. These SOPs provide clear guidance for handling each step of the closeout
process and include deadlines for FAS and PVO staff to ensure that closeouts do not languish in
the system. PVOs now are provided a maximum of 30 days in which to respond to FAS closeout
letters. Agreements automatically will be closed out for PVOs that fail to respond. This close-
out process, along with all other aspects of food assistance grants management, is completed in
the new FAIS system. It is possible to track an agreement from the proposal stage through close-
out in FAIS, including all steps in the close-out review process. This process, already
implemented, will be evaluated, refined, and documented by September 30, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 9
Update the MOU between FAS and FSA to detail each agency’s responsibilities and the
documentation needed for closing FAS food aid agreements in USDA’s accounting system, and
to implement formal procedures and management review detailing FAS staff responsibilities and
documentation needed for closing completed Food for Progress Program agreements in USDA’s
accounting system.

Agency Response
FAS agreed with this recommendation and stated that it and FSA have been working over the
past year to address the MOU between the two agencies. FAS expects to have new
documentation of the roles and responsibilities in the relationship by December 31, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 10

Incorporate closeout dates into the agreement language and institute monetary penalties when
PVOs do not timely respond to closure requests, including enforcement actions detailed in
7 CFR Part 3019.62.

Agency Response
FAS agreed with this recommendation and stated that it will include closeout dates in the
standard grant agreement template by March 31, 2014. FAS will continue its current practice of
withholding final reimbursements to PVOs until they have submitted all closeout-related


22     AUDIT REPORT 07601-0001-22
documents. FAS also will continue to track PVO performance in responding to requests to close
out agreements and consider that performance when evaluating new applications. Regarding
enforcement actions, both the 2012 and 2013 Food for Progress solicitations listed as a negative
factor that may be considered in the scoring of proposals that “the organization has, on at least
two occasions within the past 3 years, failed to respond, or responded more than 5 business days
late, to an FAS deadline for documents required during the close-out of an agreement.” When
appropriate, FAS will continue to make use of the payment withholding remedy made available
as an enforcement action in 7 CFR 3019.62.

OIG Position
We accept management decision for this recommendation.

Recommendation 11

Resolve the $8,481 discrepancy in one PVO’s agreement funds that was deobligated by FSA,
including any necessary accounting adjustments to USDA’s accounting system.

Agency Response
FAS agreed with this recommendation and stated that it is in the process of investigating this
finding. FAS stated it is working with FSA to determine the reason for the discrepancy
identified by OIG and to make any necessary accounting adjustments to USDA’s accounting
system. These efforts are expected to be completed by September 30, 2014.

OIG Position
We accept management decision for this recommendation.




                                                            AUDIT REPORT 07601-0001-22           23
Scope and Methodology 
Our audit focused on whether FAS adequately ensured that PVOs made proper use of funds to
efficiently and effectively operate Food for Progress Program food aid agreements to achieve the
agency’s food aid program objectives. We covered FYs 2009 through 2012, and other periods as
deemed necessary. We reviewed FAS’ internal controls structure at the national office in
Washington, D.C., focusing on active agreement activities and the closeout process. We did not
test FAS’ application/selection process for Food for Progress Program agreements, as previous
OIG audits did not reveal significant issues in this area. Also, we did not provide audit coverage
of the McGovern-Dole Food for Education Program, based on GAO’s recent audit of the
program.42

FAS had 77 active Food for Progress Program agreements with PVOs, totaling $734.5 million,
as of September 11, 2011, that were awarded between FYs 2003 and 2011. The 77 active Food
for Progress Program agreements ranged from $746,360 to $30,474,186 in Federal award funds.
As part of our audit, we selected and reviewed a judgmental sample of six active Food for
Progress Program agreements, totaling $81.3 million, awarded through FY 2010, based on
several factors and considerations to include dollar values, geographic location, number of active
years, those awarded to PVOs with multiple Food for Progress Program agreements, and
problems identified by FAS during reviews. We conducted an onsite review at one PVO’s
(TechnoServe) Washington, D.C., home office, in conjunction with two of the six judgmentally
selected agreements.43 Our review of the PVO’s agreements did not include in-country visits to
test the accuracy and reliability of agreement activities and supporting documentation, as initially
planned, due to funding limitations.

Also, FAS closed 97 Food for Progress Program agreements between FYs 2009 and 2011.44 We
selected and reviewed a judgmental sample of six closed Food for Progress Program agreements,
totaling $46.9 million.45 Our selection factors and considerations were based on those
agreements with the largest dollar amounts among recently closed agreements, largest CCC
administrative funds granted, recent MES closure dates, year of MES closure, prior OIG audit
issues with the PVO, and immediate availability of agreement closure file.

To accomplish our audit objectives, we performed the following procedures:

     ·   Reviewed Public Law 110-246 section 3206 (Farm Bill of 2008), the Food for Progress
         Act of 1985, and FAS regulations (7 CFR 1499) governing the Food for Progress
         Program.
     ·   Reviewed internal FAS policies and procedures used to administer the Food for Progress
         Program, including the agreement monitoring and agreement closeout processes.


42
   USDA's Oversight of the McGovern-Dole Food for Education Program Needs Improvement,
GAO-11-544, May 19, 2011.
43
   We expanded our review to include one adjustment associated with a final LogMon report from a 2006 Food for
Progress Program agreement for this selected PVO.
44
   Closed agreement list provided by FAS as of August 6, 2011.
45
   One of the six agreements reviewed was closed during FY 2011 following the date of the list provided by FAS.


24       AUDIT REPORT 07601-0001-22
·   Reviewed FAS’ performance measures established for PVO agreements in the agency’s
    annual Government Performance and Results Act plan.
·   Reviewed prior OIG and GAO audits to identify deficiencies disclosed and assess FAS’
    implementation of corrective actions.
·   Reviewed FAS’ FYs 2006 through 2011 and 2012 through 2016 strategic plans to
    identify the agency’s goals, objectives, and performance measures as they relate to the
    Food for Progress Program and administrative responsibilities.
·   Reviewed FAS’ FYs 2009 through 2010 Performance and Accountability Reports.
·   Assessed FAS’ documented internal control structure for administering the Food for
    Progress Program.
·   Interviewed FAS national office officials to determine their roles and responsibilities for
    the Food for Progress Program’s administration, including the OCBD; Director and
    Deputy Director of FAD, OCBD; Special Assistant to the Deputy Administrator of
    OCBD; Acting Chief of the Compliance Review Branch, Compliance, Security and
    Emergency Planning Division; and analysts from FAD and MES staffs.
·   Obtained a listing of FAS active and closed agreements, generated from FAS’ Food Aid
    Database. Based on our limited testing for completeness, we relied on FAS’ provided list
    of active Food for Progress Program agreements with PVOs. Also, we obtained a FAS
    list of closed Food for Progress Program agreements; however, additional records were
    not available for further testing of the accuracy of this list. We did not perform tests
    of any FAS database or information system used by the agency to determine the overall
    reliability of the information obtained from them, nor did we rely on these systems to
    obtain sufficient, appropriate, and relevant evidence to support work performed, as
    specific audit objectives did not include an evaluation of the effectiveness of the
    information system or information technology controls. Therefore, we make no
    representation as to the adequacy of the information systems.
·   Reviewed and analyzed the Food for Progress Program active and closed agreement files,
    including documents such as the Food for Progress Program agreement with FAS,
    proposals, LogMon reports, quarterly financial reports, OMB Circular A-123 audit
    reports, independent evaluations, and closeout evaluations, as applicable.
·   Interviewed the CCC FSA official responsible for agreement closure in USDA
    accounting systems.
·   Interviewed officials from TechnoServe to include the Chief Financial Officer, Chief
    Operating Officer, Director of Budgeting and Planning, and the Internal Audit Director to
    determine their roles and responsibilities and evaluate their processes for administering
    their Food for Progress Program agreements with FAS.
·   Reviewed TechnoServe Food for Progress Program agreement records to include general
    ledgers and supporting records, such as payroll documents, invoices, contracts, banking
    records, and external reviews.
·   Discussed the issues we found during our review with FAS national office officials to
    obtain their positions and responses.


                                                          AUDIT REPORT 07601-0001-22          25
We performed our audit fieldwork from July 2011 through September 2013. We conducted this
audit in accordance with Generally Accepted Government Auditing Standards. These standards
require that we plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings.




26     AUDIT REPORT 07601-0001-22
Abbreviations 
ACDI/VOCA ........................ Agricultural Cooperative Development International and
                                   Volunteers in Overseas Cooperative Assistance
CCC ...................................... Commodity Credit corporation
CFR ...................................... Code of Federal Regulations
CSEPD.................................. Compliance, Security, and Emergency Planning Division
FAD ...................................... Food Assistance Division
FAIS ..................................... Food Aid Information System
FAS....................................... Foreign Agricultural Service
FSA....................................... Farm Service Agency
FY......................................... Fiscal Year
GAO ..................................... Government Accountability Office
LogMon ................................ Logistics and Monetization
MES...................................... Management and Evaluation Staff
MOU..................................... Memorandum of Understanding
OCBD ................................... Office of Capacity Building and Development
OGC ..................................... Office of the General Counsel
OIG....................................... Office of Inspector General
OMB ..................................... Office of Management and Budget
PVO ...................................... Private Voluntary Organization
SOP....................................... Standard Operating Procedure
USDA ................................... Department of Agriculture




                                                                          AUDIT REPORT 07601-0001-22   27
Exhibit A:  Summary of Monetary Results 

 Finding      Recommendation                 Description               Amount              Category
                                          Improper expenses                            Questioned Costs –
     1                  3                  charged to PVO               $132,352           Recovery
                                             agreements                                 Recommended
                                                                                       Questioned Costs –
                                        Underreported interest
     1                  3                                                  23,626          Recovery
                                              earnings
                                                                                        Recommended
                                        Interest earnings on                           Questioned Costs –
     1                  4                advance funds not                   9,204         Recovery
                                          remitted to CCC                               Recommended
                                       Unsupported expenses                           Unsupported Costs –
     1                 546               charged to PVO’s                 520,464          Recovery
                                          2006 agreement                                Recommended
                                                                                       Funds to be Put to
                                         Agreement closeout
     1                 11                                                    8,481        Better Use –
                                            discrepancy
                                                                                      Improper Accounting
 TOTAL                                                                  $694,127




46
  The $520,464 unsupported costs represents a reduction of the PVO’s 2007 agreement expenses, based on its
determination that the costs were for expenses associated with a 2006 Food for Progress Program agreement. Even
so, the PVO lacked documentation to support these specific expenses.


28       AUDIT REPORT 07601-0001-22
Exhibit B:  Corrective Action Taken by FAS for Prior Audit 
Recommendations 

The table below lists 15 audit recommendations from OIG’s March 2006, audit titled, “Private
Voluntary Organization Grant Fund Accountability,” Report No. 07016-0001-At, and provides
information about final corrective actions taken by FAS. We relied on FAS’ proposed corrective
actions in agreeing to reach management decision for these recommendations. However, our
current audit indicated further actions are necessary to effectively address the prior audit’s
recommendations.

                                                                                            Weaknesses
 No.          Recommendation                   Final Corrective Actions Taken               Identified in
                                                                                           Current Audit
       Implement management controls        FAS provided each of its monitoring         FAS did not have
       for reviews of semiannual reports,   analysts with its Monitoring and            sufficient
       onsite reviews, and closeout         Evaluation Handbook containing the          management
       reviews, as agreed upon in           steps involved in the agreement             controls for
       response to OIG’s March 1999         evaluation process. FAS also provided       monitoring and
 1a
       report. Establish and implement      training to its staff on agreement          closing agreements
       procedures to conduct detailed       evaluation procedures in January 2006.      - Finding 1,
       evaluations of all open food aid                                                 Sections A.1., A.2.,
       agreements with activities still                                                 B.1.
       underway.
       Target five to seven PVOs            FAS completed four onsite reviews for       FAS’ monitoring
       annually for thorough onsite         FY 2006, as agreed upon for FY 2006         was not sufficient
       reviews of PVO grant program         and thereafter. FAS also agreed to          to detect PVOs’
 1b    operations and perform onsite        have its EC/PD meet with its CRS at         unallowable costs -
       reviews of documents supporting      least once each year to identify specific   Finding 1, Sections
       semiannual reports at the U.S.       PVOs for onsite reviews.                    A.2.
       Headquarters of PVOs.
       Develop a system to identify         FAS developed criteria, dated
       problematic PVO agreements and       June 2006, for identifying problematic
       perform regular reviews of these     agreements and for incorporating into
 1c    agreements.                          its monitoring and evaluation
                                            handbook. FAS also prepared its first
                                            list of problematic agreements, dated
                                            May 2006.
       Develop and implement a plan         FAS developed a plan and completed          FAS needs SOPs to
       and timeframes to complete           closeout reviews of FYs 1998 to 2001        monitor agreement
 1d    closeout reviews of the backlog      agreements by September 2009.               closure process -
       of agreements for FYs 1998                                                       Finding 1, Section
       through 2001.                                                                    B.1.
       Develop procedures to ensure that    In June 2006, FAS implemented               FAS needs SOPs to
       agreements for FY 2002 and           procedures and timeframes for               monitor agreement
 1e    beyond receive timely closeout       completing reviews of closeout              closure process -
       reviews.                             requests.                                   Finding 1, section
                                                                                        B.1.



                                                                  AUDIT REPORT 07601-0001-22             29
                                                                                          Weaknesses
No.          Recommendation                   Final Corrective Actions Taken              Identified in
                                                                                        Current Audit
      Review narrative descriptions of      In June 2006, FAS implemented new         FAS needs SOPs to
      agreement operations, commodity       procedures to fully review financial      monitor agreement
      transactions, and all other           and monetization and logistics reports;   closure process –
2     information submitted in PVOs’        document and track results; and give      Finding 1, section
      semiannual logistics and              priority consideration and recommend,     A.2.
      monetization reports reviewed,        for annual review in FY 2007, those
      and track any problematic issues.     agreements on its problematic list.
      Establish a process for meetings      FAS established a process to hold
      between the FAS evaluation and        ongoing meetings between its FAD
      compliance personnel to refer         and Compliance, Security, and
      problematic agreements for onsite     Emergency Planning Division
      reviews. Document agreement           (CSEPD) to discuss and refer
      referrals and review results.         problematic agreements. FAD and
3                                           CSEPD held its first meeting in July
                                            2006. The problematic agreements list
                                            is periodically updated, shared, and
                                            discussed among CSEPD, FAD, and
                                            MES. OCBD and CSEPD determine
                                            specific PVOs or agreements for
                                            compliance review.
      Develop and implement a               In June 2006, FAS developed and           FAS needs SOPs to
      separate process to ensure timely     implemented procedures and                monitor agreement
      closeout reviews of government-       timeframes for closeout of                closure process –
      to-government agreements,             government-to-government                  Finding 1, section
4
      including steps to elevate closeout   agreements that included written          B.1.
      problems to departmental              guidelines for conducting minimal
      officials for timely final            reviews of the agreements.
      resolutions.
      In order to protect food aid data     FAS took steps to ensure it was
      from unauthorized access and loss     compliant with OMB A-130 and NIST
      during routine system                 800-37 procedures. In September
      maintenance and future system         2005 FAS had an OMB-300
      modifications, ensure that the        certification developed for its FAIS
      performance management and            which included enhancements to the
5     evaluation module and related         PVO reporting module, was approved
      modules in the new food aid           by the USDA Office of the Chief
      system comply with OMB A-130          Information Officer, and was
      and NIST 800-37 certification         forwarded to OMB for review. FAS’
      and accreditation procedures.         actions were supported by a System
                                            Accreditation Letter and OMB-300
                                            Certification for FY 2008.
      Identify and implement a course       FAS developed a plan to conduct a         FAD did not always
      of action to ensure thorough and      preliminary review of reports within      timely receive and
      timely reviews of food aid            four weeks of receipt to identify and     review PVOs’
6
      agreement operations.                 quickly note any obvious problems,        semiannual reports-
                                            and give priority consideration to PVO    Finding 1, section
                                            reports of problematic agreements.        A.1.



30    AUDIT REPORT 07601-0001-22
                                                                                          Weaknesses
No.          Recommendation                    Final Corrective Actions Taken             Identified in
                                                                                         Current Audit
      Amend CCC regulations                 FAS amended its regulations (7 CFR
      governing eligibility requirements    1499.3(a)(2) (Food for Progress
      for cooperating sponsors applying     Program) and 1599.3(a)(2)
      for foreign food donation             (McGovern-Dole
      programs to require that              International Food for Education and
      cooperating sponsors provide          Child Nutrition Program) to require
      evidence of successful prior in-      PVOs to demonstrate past experience
      country grant operations, or          or registration within the country.
      documentation to CCC to certify
7     that legal recognition has been
      obtained from the host country
      governments where grant
      programs will be implemented.
      This documentation must be
      provided before CCC finalizes a
      contract to award a food aid grant.
      Then establish controls to
      implement the amended
      regulations.
      Amend CCC regulations to              FAS implemented regulations (7 CFR         FAS did not have
      require PVOs and other                l499.3(a)(5) (Food for Progress            controls to ensure
      cooperating sponsors to provide       Program) and 1599.3(a)(5)                  PVOs maintained
      evidence that they have opened        (McGovern-Dole                             separate bank
      separate bank accounts in-country     International Food for Education and       accounts –
      for deposit of monetization           Child Nutrition Program) and               Finding 1, section
      proceeds and disbursement of          established controls to require PVOs to    A.3.
8
      local funds to conduct program        have an operating financial account in
      operations prior to shipping CCC-     the proposed targeted country, or a
      donated commodities provided          satisfactory explanation for not having
      for monetization. Then establish      such an account and a description of
      controls to implement the             how a Food for Progress Agreement
      amended regulations.                  would be administered without such an
                                            account.
      Establish agency policies and         FAS developed procedures for the
      procedures to direct FAS staff in     establishment and recovery of claims.
      initiating recovery actions or        FAS discussed the procedures with all
      claims in accordance with CCC         monitoring staff.
9
      regulations against cooperating
      sponsors at fault in losses of
      commodities or monetization
      proceeds.
      Fully implement the                   FAS developed procedures that
      performance-based review system       included providing a PVO with an
      and apply it to Winrock and all       issue letter(s) to notify it of problems
10
      other PVOs to determine whether       and suggestions for rectifying the
      the PVOs’ prior performance           problems. FAS will continue to
      justifies the award of new food       include summaries of a PVO’s past



                                                                  AUDIT REPORT 07601-0001-22           31
                                                                                          Weaknesses
No.           Recommendation                  Final Corrective Actions Taken              Identified in
                                                                                         Current Audit
      aid agreements. Document the          performance in its closeout letters. If,
      review process and maintain the       after repeated notification efforts, a
      documentation for audit review.       PVO is neither responsive nor takes
                                            corrective action in response to
                                            problems raised in the issues letter,
                                            FAS will document the situation and
                                            consider any new proposal from that
                                            PVO in light of the unresolved past
                                            issues.
      Verify that PCI obtained its          FAS confirmed its verification that the    FAS did not have
      proper share of grant funds and       proper share of proceeds and interest      controls to ensure
      accrued interest from the             was allocated to PCI's grant from          PVOs remitted
      commingled bank account, and          USDA.                                      interest earnings on
11
      accurately reported these funds to                                               advanced CCC
      FAS.                                                                             administrative
                                                                                       funds - Finding 1,
                                                                                       section A.4.
      Conduct a detailed review of          FAS conducted its review of Winrock
      Winrock’s monetization program        and issued its report October 20, 2006.
      and administrative expenses for       It found that Winrock violated its
      the FY 1998 Angola Food for           agreement in limited areas but not in
12    Progress Program agreement, and       any way that caused financial harm to
      recover from Winrock any              the CCC.
      misused or unaccounted funds,
      potentially totaling as much as
      $1,402,289.
      Refer Winrock’s FY 1997               FAS conducted its review of
      ALFALFA I and FY 1999                 Winrock’s agreements and issued its
      ALFALFA II agreements to FAS’         report October 20, 2006. FAS
      Compliance Review Staff for a         recovered $92,707 in unallowable
      detailed review to:                   expenses based on its review.
      • obtain a copy of Deloitte
      Touche Tohmatsu’s April 2000
      audit report and assess the extent
      of monetary losses related to
      fraudulent activities,
13    • vouch claimed project expenses
      to source documents,
      • determine the allowability of the
      $2,651,413 in expenses claimed
      by Winrock for the ALFALFA II
      agreement, and
      • ensure payroll taxes and social
      security contributions were By
      the end of FY 2006, CRS will
      conduct a review of Winrock’s
      FYs 1997 and 1999 agreements.



32    AUDIT REPORT 07601-0001-22
                                                                                Weaknesses
No.          Recommendation               Final Corrective Actions Taken        Identified in
                                                                               Current Audit
      Following this review, FAS will
      seek recovery of any funds, as
      appropriate, from Winrock for
      any claimed expenses determined
      to be unallowable according to
      the agreements.
      Conduct a detailed review of      FAS conducted its review of
      Winrock’s monetization program    Winrock’s agreements and issued its
      and administrative expenses       report October 20, 2006. FAS
      under the FY 1999 Food for        recovered $92,707 in unallowable
14    Progress Program agreement in     expenses based on its review.
      Ivory Coast and recover from
      Winrock any misused or
      unaccounted funds, potentially
      totaling $773,587.
      Closely monitor all active        FAS confirmed that reports received
      Winrock agreements, including     from Winrock, including those
15    the FY 2002 agreement in          received under the FY 2002 agreement
      Indonesia, until closure is       in Indonesia, were timely reviewed.
      achieved.




                                                            AUDIT REPORT 07601-0001-22      33
34   AUDIT REPORT 07601-0001-22
Agency's Response 




                USDA’S
     FOREIGN AGRICULTURAL SERVICE
       RESPONSE TO AUDIT REPORT




                      AUDIT REPORT 07601-0001-22   35
United States                           DATE:         March 11, 2014
Department of
Agriculture
                                        TO:           Gil Harden
Farm and
Foreign                                               Assistant Inspector General for Audit
Agricultural                                          Office of Inspector General
Services

Foreign                                 FROM:         Phil Karsting /s/
Agricultural
Service                                               Administrator
1400
Independence                            SUBJECT:      Response to OIG Draft Report -- “Foreign Agricultural Service - Private
Ave, SW                                               Voluntary Organization Grant Fund Accountability” (07601-0001-22)
Stop 1001
Washington, DC
20250-1001                              Thank you for providing the Foreign Agricultural Service (FAS) with the Office of
                                        Inspector General (OIG) draft report on “Foreign Agricultural Service - Private
                                        Voluntary Organization Grant Fund Accountability” (07601-0001-22).

                       FAS              FAS recognizes the need for further improvements in the administration of the Food for
Linking U.S. Agriculture to the World
                                        Progress program but also would like to emphasize the considerable accomplishments
                                        since OIG issued its last audit report on “Foreign Agricultural Service Private Voluntary
                                        Organization Grant Fund Accountability” (07016-1-At) in 2007. FAS has made
                                        significant changes to its regulations, operating systems, policies and procedures that
                                        produced improvements in FAS’s oversight of its food assistance agreements. In
                                        acknowledgment of these and all completed final actions, the USDA Office of the Chief
                                        Financial Officer (OCFO) declared the previous audit closed on June 1, 2011. Below is a
                                        brief summary of the changes enacted by FAS since OIG’s 2007 audit report.

                                        Published New Program Regulations

                                        In 2009 FAS issued new regulations for the Food for Progress program. In developing
                                        the regulations, FAS considered the recommendations from OIG’s 2007 audit report and
                                        the need to have improved accountability and performance reporting. The new
                                        regulations align more directly with the Department’s general regulations including the
                                        Uniform Administrative Requirements for Grants and Agreements found in 7 C.F.R. part
                                        3019.

                                        Implemented Two New Management Information Systems

                                        FAS implemented two new management information systems designed to strengthen the
                                        overall management of food assistance agreements. The Web Based Supply Chain
                                        Management System (WBSCM) was developed by the Agricultural Marketing Service in
                                        coordination with FAS, the U.S. Agency for International Development (USAID), and
                                        other USDA agencies to improve commodity acquisition, distribution and tracking for
                                        domestic and international food assistance programs. This system went live in 2010. In
                                        fiscal year (FY) 2012, FAS developed and implemented the Food Aid Information


                                                                     USDA is an Equal Opportunity Employer
System (FAIS) to improve the management of food assistance agreements. FAIS allows
FAS to manage all aspects of the grant agreement from proposal to close-out in one
centralized system. FAS started using FAIS in FY 2012.

Increased Human Resources for Grants Management and Compliance Reviews

Prior to 2010 FAS had limited funding to hire additional staff to manage and close-out
grant agreements, conduct compliance reviews or take monitoring trips to visit project
sites in the field. In 2010 FAS received additional funding to fill six vacant career
program analyst positions in the Food Assistance Division (FAD). This addition of staff
has allowed FAS to significantly improve agreement monitoring by reducing the total
number of active agreements managed by each program analyst while providing
additional opportunity for monitoring trips to project sites in the field. In FY 2012 FAS
staff completed 16 monitoring trips to project sites for approximately 35 Food for
Progress agreements. In FY 2013 FAS staff completed 20 monitoring trips to project
sites for approximately 37 Food for Progress agreements.

In addition, FAS has been able to increase the number of staff devoted to agreement
close-out. The increase in staffing allowed FAS to close out a backlog of 433 agreements
that remained open at OIG’s last audit in 2007. FAS also has developed standard
operating procedures for agreement close-out.

The FAS Compliance, Security and Emergency Planning Division (Compliance) has
increased the number of financial and compliance reviews of FAS’ food assistance
grants. Between FY 2008 and FY 2013, a total of 44 compliance reviews were
conducted covering 48 agreements. Fifteen compliance reviews are planned for FY
2014. Agreements are prioritized for review based on findings from semi-annual
financial and performance reports, mid-term and final evaluation reports or other
concerns identified by FAD managers. Each review takes an average of four weeks, two
of which are spent on-site at either the PVO headquarters or field-office.

The additional resources that FAS has devoted to monitoring and evaluation, compliance
and agreement close-out has enabled the agency to recover approximately $2.3 million in
misspent funds, unused monetization sales proceeds and other financial claims between
2009 and 2013. In addition, between 2012 and 2013 alone, FAS de-obligated a total of
$47.3 million in unspent commodity, transportation and administrative funds from closed
agreements.

Conducted Two Independent Risk Assessments

Since 2007 FAS has completed two independent risk assessments of the food assistance
programs. Both evaluated the programs using criteria and requirements found in the
Office of Management and Budget’s (OMB) Circular A-123, and provided best practice
guidance and detailed recommendations for improvement and corrective actions where

                                            2
needed. The first risk assessment was completed by PricewaterhouseCoopers (PwC) in
2009 and the second risk assessment was completed by MorganFranklin in 2013 (see the
FAS response under Recommendation 1 for further details). FAS is taking corrective
actions in response to the MorganFranklin recommendations.

FAS takes a serious view of the recommendations provided from all sources and
continues working to ensure that the overall objectives of FAS food assistance programs
are carried out in the best interest of all stakeholders.

The eleven OIG recommendations and FAS’s responses are provided as follows:

Recommendation 1:

Complete a risk assessment of the Food for Progress Program administrative and
oversight activities, in accordance with OMB Circular A-123, to (1) identify vulnerable
program areas, and develop and implement controls where identified weaknesses exist;
(2) periodically assess the effectiveness of corrective actions taken to address program
weaknesses; and (3) develop and implement supervisory measures for FAD and the FAS
Office of Capacity Building and Development (OCBD) Management and Evaluation
Staff (MES) performance in overseeing and delivering the program.

FAS Response:

FAS agrees with this recommendation. During FY 2013 FAS engaged MorganFranklin
Consulting to conduct a risk assessment, in accordance with OMB Circular A-123, of the
internal controls and existing policies, procedures, and operating systems used in the
management of FAS food assistance programs. MorganFranklin assessed FAS’s
progress to date in implementing corrective actions in response to findings identified in
previous audits and studies, including those conducted by OIG and the Government
Accountability Office (GAO), and in the prior risk assessment conducted by PwC in
2009. MorganFranklin also identified weaknesses that still need to be addressed.
MorganFranklin completed the risk assessment in September 2013.

Recommendation 2:

Designate a senior management official with sufficient authority to ensure all current and
prior recommendations are fully addressed, that includes ensuring adequate controls for
timely closure of Food for Progress Program agreements, Private Voluntary Organization
(PVO) proper accounting, PVO timely reporting, and PVO agreement monitoring.
Evaluate FAS OCBD staffing to determine if additional personnel for monitoring and
closeouts of the Food for Progress Program is needed, and implement a plan to increase
or reorganize staff to prioritize associated risks and properly align staff to meet program
needs.


                                             3
FAS Response:

FAS agrees with this recommendation. The FAS Deputy Administrator for OCBD is
responsible for ensuring that all current and prior recommendations are fully addressed.
The Deputy Administrator will initiate corrective actions that include the implementation
of adequate controls for timely closure of food assistance agreements, PVO accounting
and timely reporting, and FAS monitoring of PVO agreements.

FAS will engage an independent consultant to perform a human capital assessment of
FAD that will include an evaluation of Division staffing requirements as well as the other
OCBD staff support necessary to strengthen management of the food assistance
programs. FAS has developed the scope of work for the contract and expects that the
assessment will begin this Spring, finish by September, and any FAS actions taken as a
result will be completed by March 31, 2015.

Recommendation 3:

Recover from TechnoServe (1) the $132,352 in unallowable or unsupported costs
improperly charged to the 2007 and 2010 Food for Progress Program agreements, and (2)
the $23,626 of unreported interest earned by this PVO.

FAS Response:

FAS agrees that any unallowed or unsupported costs, and any unreported interest earned,
should be recovered from the TechnoServe. In response to OIG concerns FAS initiated a
financial and compliance review at TechnoServe in June 2013. If it is determined that
TechnoServe improperly charged any costs, or retained any unallowed interest earned on
federal funds, FAS will initiate efforts to recover those funds by June 30, 2014.

FAS requires that all PVO partners in food assistance agreements comply with OMB
Circular A-133 requirements regarding the subjection of federal funds to annual audits
and the provision to FAS of the resulting audit reports. Throughout the period in
question TechnoServe submitted annual audit reports in compliance with OMB Circular
A-133, and there were no findings related to USDA grant agreements in those reports.

Recommendation 4:

Recover the $9,204 in interest earnings due to the CCC from Mercy Corps, along with
any additional amounts earned in conjunction with advanced CCC administrative funds,
for its 2006 Food for Progress Program agreement.




                                            4
FAS Response:

FAS agrees that any interest earned, and any additional amounts earned, by Mercy Corps
on administrative funds advanced by the Commodity Credit Corporation (CCC) should
be recovered from the Mercy Corps. FAS will review this finding. If it is determined
that Mercy Corps retained any unallowed interest earned on federal funds, or improperly
earned and retained any additional amounts connected to the 2006 Food for Progress
agreement, FAS will initiate efforts to recover those funds by June 30, 2014.

Recommendation 5:

Review TechnoServe’s remaining disbursements (use of funds) associated with its 2007
agreement, including the $520,464 of unsupported costs to the 2006 agreement, and
recover any additional unallowable or unsupported costs, if applicable.

FAS Response:

FAS agrees that any unallowed or unsupported costs should be recovered from
TechnoServe. In response to OIG concerns FAS initiated a financial and compliance
review at TechnoServe in June 2013. If it is determined that TechnoServe improperly
charged any costs, or retained any unallowed interest earned on federal funds, FAS will
initiate efforts to recover those funds by June 30, 2014.

Recommendation 6:

Evaluate the monitoring process to better target PVOs for compliance reviews and
increase onsite reviews, to include reviewing financial activities of active Food for
Progress Program agreements. Ensure during compliance reviews that PVOs have
separate bank accounts when required.

FAS Response:

FAS agrees with the need to evaluate the monitoring process to better target PVOs for
compliance reviews and increase onsite reviews to include reviewing financial activities
of active Food for Progress agreements. In fact, FAS already has improved the
monitoring of food assistance agreements substantially during the past three years by
strengthening standard operating procedures and increasing the number of compliance
reviews.

FAS has developed formal standard operating procedures for selecting grant agreements
that receive on-site monitoring visits by program analysts in FAD. Agreements are
prioritized for site visits based on delinquent reporting; performance reports, semi-annual
financial reports, and mid-term evaluation reports; or other concerns identified by
program analysts and FAD managers. New agreements are frequently prioritized for site

                                             5
visits as are agreements that have not been reviewed at the field-level within the past
three years.

FAS also maintains a current listing of agreements that have performance issues, or
suspected performance issues, that may require enhanced monitoring. FAD, MES and
Compliance meet at least quarterly to review each agreement on the list, and these
meetings feed into the decision process of those agreements selected for onsite review by
Compliance.

In recent years the number of Compliance reviews of food assistance agreements has
greatly increased. Between FY2008 and FY2013 Compliance conducted a total of 44
food assistance reviews, with 14 (35 percent) in FY2013 alone. In FY2014, 15
Compliance reviews are planned.

Nevertheless, FAS will evaluate its monitoring process to better target PVOs for
compliance reviews and increase onsite reviews, to include reviewing financial activities
of active Food for Progress Program agreements, to determine if there are any further
steps to be taken. The results of this evaluation will be available by September 30, 2014.

FAS does not agree with a need to ensure PVOs have separate bank accounts. FAS does
not require that PVOs maintain a separate bank account for each individual grant
agreement but FAS does require that PVOs have sufficient controls in place to provide
segregated accounting for each grant agreement. This is consistent with: (1) the
achievement of Management Decision and OCFO acceptance of Final Action on the issue
in OIG’s 2007 audit, (2) 7 C.F.R. 3019.22(i)(1) which states that “Federal awarding
agencies shall not require separate depository accounts for funds provided to a recipient
or establish any eligibility requirements for depositories for funds provided to a
recipient,” and (3) the imminent provisions of 2 C.F.R. 200, which is expected to be
adopted and incorporated by reference into all Departmental and program-specific
regulations by December 31, 2014. During their reviews Compliance ensures that PVOs
can properly account for Food for Progress funds within each agreement.

Recommendation 7:

Implement formal policies or procedures for FAD staff, including supervisory monitoring
to (1) address agency responsibilities concerning delinquent LogMon and financial status
reports, including timeframes for followup action with PVOs and review of reports; (2)
and require FAD to follow up with PVOs to obtain delinquent interest earnings due to
[CCC]. Incorporate automated alerts and edit checks into FAIS to assist staff monitoring
functions, where possible.




                                             6
FAS Response:

FAS agrees with this recommendation and has begun to implement formal policies and
procedures for FAD staff related to monitoring and collection of interest earnings. Since
OIG’s review FAS has developed policies and procedures for supervisory monitoring of
performance reports. All program analysts are required to enter comments into FAIS for
all performance reports submitted for agreements in their portfolio. FAD managers are
able to easily run a report from FAIS to review whether comments were entered for all
performance reports received to ensure that each analyst has reviewed their assigned
reports. The FAD director and branch chiefs meet with each individual employee’s
manager to review the reports received and to discuss project progress and agreement
issues. Necessary actions identified within the meetings are added to the FAD’s tracking
system.

In February 2013 FAS hired an additional staff member to track and review all semi-
annual financial reports. This staff member reviews each report that is received, brings
any issues or concerns to the attention of FAD managers and meets individually with
each program analyst to discuss the financial reports for the agreements under their
purview.

FAS is working to draft and implement new standard operating procedures that are in
accordance with 7 C.F.R. 3019.22(l) regarding interest earned above $250 by
September 30, 2014.

Recommendation 8:

Implement internal controls that provide formal policies and procedures, including
supervisory monitoring and reviews, to track agreements throughout the closeout process
to ensure the timely closure of Food for Progress Program agreements. Incorporate
automated processes within the Food Aid Information System (FAIS), where possible.

FAS Response:

FAS agrees with this recommendation. FAS has taken aggressive measures to close out
inactive agreements since OIG released its previous audit report in 2007. Between FY
2008 and FY 2013 FAS closed a total of 433 agreements, including 238 Food for
Progress agreements. At the end of January 2014 closeout reviews for an additional 55
agreements were in progress. FAS recently has updated its standard operating procedures
for the closeout process. These standard operating procedures provide clear guidance for
handling each step of the closeout process and include deadlines for FAS and PVO staff
to ensure that closeouts do not languish in the system. PVOs now are provided a
maximum of 30 days in which to respond to FAS closeout letters. Agreements
automatically will be closed out for PVOs that fail to respond. This close-out process,
along with all other aspects of food assistance grants management, is completed in the

                                            7
new FAIS system. It is possible to track an agreement from the proposal stage through
close-out in FAIS, including all steps in the close-out review process. This process,
already implemented, will be evaluated, refined, and documented by September 30, 2014.

Recommendation 9:

Update the MOU between FAS and the FSA to detail each agency’s responsibilities and
the documentation needed for closing FAS food aid agreements in USDA’s accounting
system, and implementing formal procedures and management review detailing FAS staff
responsibilities and documentation needed for closing completed Food for Progress
Program agreements in USDA’s accounting system.

FAS Response:

FAS agrees with this recommendation. FAS and FSA have been working over the past
year to address the MOU between the two agencies. FAS expects to have new
documentation of the roles and responsibilities in the relationship by December 31, 2014.

Recommendation 10:

Incorporate closeout dates into the agreement language and institute monetary penalties
when PVOs do not timely respond to closure requests, including enforcement actions
detailed in 7 C.F.R. part 3019.62.

FAS Response:

FAS will include closeout dates in the standard grant agreement template by March 31,
2014. FAS will continue its current practice of withholding final reimbursements to
PVOs until they have submitted all closeout-related documents. FAS also will continue
to track PVO performance in responding to requests to close out agreements and consider
that performance when evaluating new applications.

Regarding enforcement actions, both the 2012 and 2013 Food for Progress solicitations
listed as a negative factor that may be considered in the scoring of proposals that “The
organization has, on at least two occasions within the past 3 years, failed to respond, or
responded more than 5 business days late, to an FAS deadline for documents required
during the close-out of an agreement.” When appropriate, FAS will continue to make use
of the payment withholding remedy made available as an enforcement action in 7 C.F.R.
3019.62.

Recommendation 11:

Resolve the $8,481 discrepancy of one PVO’s agreement funds that was deobligated by
FSA, including any necessary accounting adjustments to USDA’s accounting system.

                                            8
FAS Response:

FAS is in the process of investigating this finding. This concerns a 2002 agreement with
Counterpart International for a Food for Progress program in Vietnam. FAS is working
with FSA to determine the reason for the discrepancy identified by OIG and to make any
necessary accounting adjustments to USDA’s accounting system. These efforts are
expected to be completed by September 30, 2014.

If you have any questions or concerns regarding this memorandum, or if you need
additional information, please contact James Gartner, FAS’s Audit Liaison, on
(202) 720-0517.




                                           9
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
